Audit Report




OIG-13-053
TERRORIST FINANCING/MONEY LAUNDERING: FinCEN’s BSA
IT Modernization Program Was within Budget and on Schedule
But Users Suggest Enhancements
September 25, 2013




Office of
Inspector General
Department of the Treasury
This Page Intentionally Left Blank.
Contents

Audit Report

  Results in Brief ............................................................................................ 3

  Findings ..................................................................................................... 4

      BSA IT Mod Program Was within Budgeted Costs with One Milestone
      Remaining .............................................................................................. 4

      BSA IT Mod Is Generally Meeting User Needs But Users Suggest Further
      Enhancements ........................................................................................ 9

      Oversight of BSA IT Mod Continued .......................................................... 14

  Recommendations ....................................................................................... 16

Appendices

  Appendix     1:      Objectives, Scope, and Methodology ......................................              19
  Appendix     2:      Additional Background Information on BSA IT Mod ...................                    22
  Appendix     3:      Management Response .........................................................          25
  Appendix     4:      Major Contributors to this Report ............................................         27
  Appendix     5:      Report Distribution ................................................................   28

Abbreviations

  BCR                  baseline change request
  BSA                  Bank Secrecy Act
  BSA Direct           BSA Direct Retrieval and Sharing
  BSA IT Mod           BSA Information Technology Modernization Program
  CIO                  Chief Information Officer
  FinCEN               Financial Crimes Enforcement Network
  H. Rept.             House Report
  IRS                  Internal Revenue Service
  IT                   Information Technology
  MITRE                MITRE Corporation
  OCIO                 Office of the Chief Information Officer
  OIG                  Office of Inspector General
  SOR                  system of record
  TEOAF                Treasury Executive Office of Asset Forfeiture


                       FinCEN’s BSA IT Modernization Program Was within Budget and on Schedule             Page i
                       But Users Suggest Enhancements (OIG-13-053)
This Page Intentionally Left Blank.
                                                                                      Audit
OIG
The Department of the Treasury
                                                                                      Report
Office of Inspector General




                      September 25, 2013

                      Jennifer Shasky Calvery, Director
                      Financial Crimes Enforcement Network

                      The Financial Crimes Enforcement Network (FinCEN) administers
                      the Bank Secrecy Act (BSA), which established the framework to
                      combat criminal use of the financial system. BSA requires financial
                      institutions to report certain financial transactions made by their
                      customers. FinCEN oversees the management, processing, storage,
                      and dissemination of BSA data. In November 2006, FinCEN began
                      a system development effort, the BSA Information Technology
                      Modernization Program (BSA IT Mod), to improve the collection,
                      analysis, and sharing of BSA data. The intent of the effort was,
                      among other things, to transition BSA data from the Internal
                      Revenue Service (IRS) to FinCEN. BSA IT Mod is estimated to cost
                      $120 million and is to be completed in 2014.

                      Pursuant to a Congressional directive, we conducted the fourth in a
                      series of audits of FinCEN’s BSA IT Mod. 1 Consistent with the
                      Congressional directive, the objectives of the audit were to
                      determine if FinCEN is (1) meeting cost, schedule, and performance
                      benchmarks for the program and (2) providing appropriate oversight
                      of contractors. We also assessed any deviations from FinCEN’s
                      plan. The period covered by this audit was January through June
                      2013. We interviewed FinCEN program officials, Treasury‘s Office

1
  House Report (H. Rept.) 112-331 directed our office to report on BSA IT Mod, including contractor
oversight and progress regarding budget and schedule, semiannually. Our prior three reports issued
under this directive are FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost But
Requires Continued Attention to Ensure Successful Completion (OIG-12-047; Mar. 26, 2012); FinCEN’s
BSA IT Modernization Program Is Meeting Milestones, But Oversight Remains Crucial (OIG-12-077;
Sep. 27, 2012); FinCEN’s BSA IT Modernization Program Met Milestones with Schedule Extensions
(OIG-13-036; Mar. 28, 2013).


                      FinCEN’s BSA IT Modernization Program Was within Budget and on Schedule   Page 1
                      But Users Suggest Enhancements (OIG-13-053)
                       of Chief Information Officer (OCIO) officials, and a number of BSA
                       IT Mod system users. We interviewed representatives from Deloitte
                       Consulting, LLP (Deloitte), and MITRE Corporation (MITRE), the
                       contractors involved with the program. 2 We also reviewed
                       applicable program documentation. We performed our fieldwork
                       from April 2013 through July 2013. Appendix 1 provides a more
                       detailed description of our audit objectives, scope, and
                       methodology. Appendix 2 provides additional background
                       information on BSA IT Mod, including its component projects.

                       In March 2013, we reported on FinCEN’s BSA IT Mod as of
                       December 2012. 3 We found that BSA IT Mod program was
                       proceeding mostly on schedule and within budgeted cost. Program
                       development met all major milestones but the planned completion
                       dates for certain projects were extended when project staffing
                       resources were re-allocated to resolve data quality issues. Although
                       the program as a whole was within budget, the costs for some
                       discrete projects exceeded initial budgeted amounts. We also
                       reported that FinCEN tested the performance of BSA IT Mod
                       projects that were completed as of our review, and resolved
                       significant issues identified during testing. Additionally, we
                       reported that FinCEN users began experiencing performance issues
                       with the FinCEN Query tool, 4 including searches yielding
                       incomplete data. FinCEN attributed this problem to the search
                       engine software and resolved the problem shortly after our
                       fieldwork was completed. We cautioned in our March 2013 report
                       that risks remained to BSA IT Mod, including the interdependency
                       between the component projects. Another risk we identified was
                       the differences among users’ needs and how FinCEN must
                       consider, prioritize, and accommodate those needs. Some users
                       also reported that BSA IT Mod features were challenging to use.




2
  FinCEN contracted with Deloitte to oversee the systems development and integration effort. Deloitte is
the prime contractor in the BSA IT Mod effort. FinCEN also engaged MITRE as a subject matter expert
on program and project management and BSA IT Mod business capabilities. MITRE is a not-for-profit
organization chartered to work in the public interest with expertise in systems engineering, information
technology, operational concepts, and enterprise modernization.
3
  FinCEN’s BSA IT Modernization Program Met Milestones with Schedule Extensions (OIG-13-036;
Mar. 28, 2013).
4
  FinCEN Query is used by FinCEN internal users and by registered external users and customers to
retrieve and analyze BSA data.


                       FinCEN’s BSA IT Modernization Program Was within Budget and on Schedule    Page 2
                       But Users Suggest Enhancements (OIG-13-053)
Results in Brief
                       As of June 2013, we found that the BSA IT Mod program was
                       within budgeted costs and that all planned milestones were
                       completed except one, the Broker Information Exchange project. 5
                       The schedule for this milestone, the last one for the BSA IT Mod
                       program, was modified to incorporate phases and adjusted from
                       April 2013 to April 2014 because of a reorganization of FinCEN
                       that required additional time to define the project’s requirements
                       and align with the new organization areas and priorities.

                       FinCEN Query users from law enforcement and regulatory agencies
                       we interviewed were generally satisfied with the system, but
                       expressed some limitations and suggested enhancements. FinCEN
                       analysts we interviewed told us that Advanced Analytics 6 met their
                       needs though it was somewhat complex and believed additional
                       training would be beneficial.

                       The BSA IT Mod program had progressed from the development
                       phase to the operations and maintenance phase. That said, there
                       was a continued risk to the remaining project development work
                       with the program’s high-level of dependency between its
                       component projects. The effect of programming changes in any
                       component could require programming changes to other
                       components of the system. Another risk is how users’ needs differ
                       and how FinCEN must consider, prioritize, and accommodate those
                       differences. In this regard, FinCEN’s continued attention will be
                       necessary as FinCEN Query and Advanced Analytics users become
                       more familiar with the system and may request changes,
                       enhancements, and support. In our future audit work under the
                       Congressional directive, we plan to assess FinCEN’s efforts in
                       meeting these BSA IT Mod challenges.



5
  The Broker Information Exchange project is to provide a mechanism to share case information for both
internal and external users. It also is to have the capability to allow (a) law enforcement agencies to
submit requests through FinCEN to financial institutions for information about financial accounts and
transactions of persons or businesses that may be involved in terrorism or money laundering and
(b) financial institutions to share information with one another through FinCEN to identify and report
suspicious money laundering or terrorist activities to the federal government.
6
  Advanced Analytics provides complex search and retrieval functionality such as statistical analyses for
FinCEN internal users to support their analytical, law enforcement, and regulatory activities.


                       FinCEN’s BSA IT Modernization Program Was within Budget and on Schedule     Page 3
                       But Users Suggest Enhancements (OIG-13-053)
                      We also found that the level of program oversight by FinCEN and
                      Treasury OCIO had not changed since our previous report, and we
                      consider the level of oversight to be appropriate.

                      We are recommending that FinCEN (1) when making changes to
                      BSA IT Mod, communicate the changes to users; (2) continue to
                      engage users to address their concerns and suggested
                      enhancements to BSA IT Mod through the Data Management
                      Council (DMC) 7 and periodically communicate the status of these
                      suggestions to users; and (3) ensure that training and support is
                      provided to internal and external BSA IT Mod users that addresses
                      their business needs.

                      In its management response, which is provided in appendix 3,
                      FinCEN concurred with our recommendations. Its actions, both
                      taken and planned, are summarized in the Recommendations
                      section of this report and meet the intent of the recommendations.
                      With regard to FinCEN Query, FinCEN noted that this new query
                      system is a robust tool built using modern web search technology
                      that allows users to search BSA data more comprehensively than
                      before. As users learn how to use and leverage these new
                      capabilities in their own environments, FinCEN management
                      believes that it will continue to identify changes and enhancements
                      they would like to see in the system. FinCEN will work with its
                      stakeholders to identify and discuss ways to balance the respective
                      business priorities of the user community and enhance FinCEN
                      Query now and in years ahead.

Findings
Finding 1             BSA IT Mod Program Was within Budgeted Costs with
                      One Milestone Remaining

                      As of June 2013, we found that BSA IT Mod program was within
                      budgeted costs and that all milestones were completed except for

7
  The DMC provides a forum for internal and external stakeholders to communicate their organizations’
views to FinCEN. These members provide input on system and data-related topics including request for
changes, data-related issues, and system defects. According to FinCEN, the DMC will be involved in
prioritizing enhancements and defects that will be addressed as part of future releases. In addition,
FinCEN’s Investment Review Board sets the priorities for FinCEN, which will also dictate what is
included in each release.


                      FinCEN’s BSA IT Modernization Program Was within Budget and on Schedule   Page 4
                      But Users Suggest Enhancements (OIG-13-053)
                          the Broker Information Exchange project. The schedule for this final
                          project was modified to incorporate phases and adjusted from April
                          2013 to April 2014. Additional time was required to define the
                          project’s requirements and align with the new organization and its
                          priorities.

                          Figure 1 provides a timeline of significant events in the BSA IT Mod
                          program.

Figure 1. Timeline of Significant Events in FinCEN’s BSA System Modernization Efforts

                                                                                                          April 2014
                      January 2007 –
                                                                               January 2012                 Planned
                     December 2009
   July 2006                                          May 2010           FinCEN transitioned the         milestone and
                   FinCEN developed IT
     FinCEN                                           Design and          collection, processing,           system
                   governance process,
   terminated                                        development         and storage of all BSA          development
                   stakeholders’ needs,
  BSA Direct*                                        phase started             data from IRS              completion
                    and business case


2006        2007           2008       2009           2010         2011          2012          2013        2014


     November 2006                 January 2009             June 2011         November 2012           March 2013
  FinCEN established IT                Program                FinCEN              FinCEN             FinCEN adjusts
  modernization, vision             initiation and           realigned         completed roll        schedule of the
   and strategy and set            planning phase            costs and         out of FinCEN              Broker
      modernization                of BSA IT Mod              adjusts         Query to 7,500           Information
        foundation                      started              schedule              users                Exchange
                                                                                                          Project

Source: OIG review of FinCEN data.
*FinCEN terminated BSA Direct Retrieval and Sharing (BSA Direct) after concluding the project had no guarantee
of success. We reviewed that failure and found that FinCEN poorly managed the predecessor project,
insufficiently defined functional and user requirements, misjudged project complexity, and established an
unrealistic completion date. We also found that the Treasury OCIO did not actively oversee the project, as
required by the Clinger-Cohen Act of 1996. Treasury Office of Inspector General (OIG), The Failed and Costly
BSA Direct R&S System Development Effort Provides Important Lessons for FinCEN’s BSA Modernization Program
(OIG-11-057: Jan. 5, 2011).


                          Final Project Date Extended

                          As of June 30, 2013, FinCEN met all but one of the major BSA IT
                          Mod milestones, Broker Information Exchange. In March 2013, the
                          Treasury OCIO approved a FinCEN baseline change request (BCR)
                          to split the program’s final project, release 2 of the Broker
                          Information Exchange, into two phases and to extend the
                          completion date from April 2013 to April 2014. The BCR did not
                          change the Broker Information Exchange project’s budgeted costs.



                          FinCEN’s BSA IT Modernization Program Was within Budget and on Schedule              Page 5
                          But Users Suggest Enhancements (OIG-13-053)
                         FinCEN BSA IT Mod program management officials and MITRE
                         officials told us that the completion date for Broker Information
                         Exchange was extended because of FinCEN’s reorganization
                         implemented in June 2013. More time was necessary as the
                         FinCEN personnel needed to define the project’s requirements were
                         transitioned into new roles within the organization. Additionally,
                         because of the reorganization, time was needed to both revalidate
                         existing requirements and ensure new requirements were captured.

                         BSA IT Mod program officials told us that FinCEN's reorganization
                         and the resulting change in management could pose additional risk
                         to the Broker Information Exchange project. Specifically, there is a
                         possibility that management may make changes to the project that
                         were not originally planned, which could increase its cost and
                         schedule.

                         Table 1 displays the status of BSA IT Mod by project. Appendix 2
                         provides descriptions for the various projects.

Table 1: BSA IT Mod Project Schedule Status as of June 30, 2013
                                                                             Actual or
                                      Planned            Revised Planned     Planned           Project
                                      Completion         Completion          Completion        Status at
                                      Date at May        Date at June        Date at June      June
Project                               20101              20112               20133             2013
SOR
      Release 1                       9/30/2011          12/1/2011           12/15/2011        Complete
      Release 2                       6/30/2012          7/1/2012            10/16/2012        Complete
Shared Filing Services
      Release 1                       9/30/2011          12/1/2011           12/15/2011        Complete
      Release 2                       6/30/2012          7/1/2012            10/16/2012        Complete
Third Party Data
      Release 1                       9/30/2011          12/1/2011           12/15/2011        Complete
      Release 2                       6/30/2012          7/1/2012            10/16/2012        Complete
Data Conversion                       12/31/2011         1/1/2012            1/6/2012          Complete
E-Filing
      Release 1                       6/30/2011          7/1/2011            7/1/2011          Complete
      Release 2                       10/31/2011         7/1/2012            7/31/2012         Complete
FinCEN Query
      Release 1                       2/28/2012          6/1/2012            7/20/2012         Complete
      Release 2                       9/30/2012          10/1/2012           11/16/2012        Complete
Advanced Analytics
      Release 1                       10/31/2010         10/31/2010          10/31/2010        Complete
      Release 2                       4/30/2011          4/30/2011           4/30/2011         Complete
      Release 3                       7/31/2012          9/1/2012            8/1/2012          Complete
      SCIF4                           n/a                12/1/2012           11/9/2012         Complete
Register User Portal                  3/31/2011          3/31/2011           3/31/2011         Complete


                         FinCEN’s BSA IT Modernization Program Was within Budget and on Schedule     Page 6
                         But Users Suggest Enhancements (OIG-13-053)
Table 1: BSA IT Mod Project Schedule Status as of June 30, 2013
                                                                               Actual or
                                     Planned              Revised Planned      Planned            Project
                                     Completion           Completion           Completion         Status at
                                     Date at May          Date at June         Date at June       June
Project                              20101                20112                20133              2013
Identity/Access
Control Management                   3/31/2011            3/31/2011            3/31/2011          Complete
Broker Information Exchange
     314A,B Release 1                5/31/2011            5/31/2011            5/31/2011          Complete
     314A,B Release 2 Phase 1        12/31/2012           4/1/2013             8/1/20135          Ongoing
     314A,B Release 2 Phase 26       n/a                  n/a                  4/1/20145          Ongoing
Alerts                               9/30/2012            1/1/2013             1/4/2013           Complete
Bulk Data Dissemination
      Release 1                      9/30/2011            3/1/2012             4/17/2012          Complete
      Release 2                      6/30/2012            7/1/2012             10/16/2012         Complete
Infrastructure & Portal Security
Develop and Test                     9/30/2010            9/30/2010            9/30/2010          Complete
      Release 1                      3/31/2011            3/31/2011            3/31/2011          Complete
      Release 2                      9/30/2011            9/30/2011            9/30/2011          Complete
      Release 3                      6/30/2012            n/a7                 n/a7               n/a7
Source: OIG analysis of FinCEN documentation.
1
  The dates displayed were the initial planned completion dates when in May 2010, FinCEN began the design
and development of projects after receiving Office of Management and Budget approval.
2
  FinCEN submitted a BCR to the Treasury CIO to adjust selected project milestone schedule dates and realign
costs to keep the overall program on track. The baseline change was implemented in June 2011.
3
   Dates represent the actual completion dates if the project was completed, or the planned completion date as
of the cutoff date of our review (June 30, 2013).
4
   A sensitive compartmented information facility (SCIF) has formal access controls and is used to hold
information concerning or derived from intelligence sources, methods, or analytical processes. FinCEN plans
to provide its SCIF with advanced analytics capability, which was not part of the May 2010 initial plan but
 was part of the June 2011 BCR.
5
   A baseline change was implemented in March 2013 which adjusted the schedule completion dates. We plan to
determine the status and report on this milestone in our next semiannual report pursuant to H. Rept. 112-331.
6
   Originally, the project did not have two phases.
7
   Not applicable - The work planned for Infrastructure release 3 was removed from the project and will be
done as part of BSA IT Mod’s on-going operations and maintenance.




                       FinCEN’s BSA IT Modernization Program Was within Budget and on Schedule           Page 7
                       But Users Suggest Enhancements (OIG-13-053)
                      During the audit period, FinCEN completed the Alerts project. The
                      project was completed within budgeted costs and near schedule—
                      the milestone date was missed by only 3 days. FinCEN released
                      Alerts to its internal users in a pilot program to test the
                      effectiveness of the business rules developed. 8 FinCEN officials had
                      not decided when, or to what extent, Alerts will be released to
                      external users.

                      BSA IT Mod Stayed within Budgeted Costs

                      As of June 30, 2013, FinCEN reported that it spent approximately
                      $96 million developing BSA IT Mod from its overall $120 million, 4-
                      year planned budget. Not included in this amount was
                      approximately $11.2 million in initial program planning costs, which
                      we addressed in our March 2012 report. In that regard, FinCEN’s
                      actual program costs incurred through June 2013 were
                      approximately $107.2 million. A breakdown by category of the
                      actual costs incurred is provided in Table 2 below.

                        Table 2: BSA IT Mod Costs as of June 30, 2013 (in millions)
                        Category                                                            Amount
                        Initial Planning                                                     $11.2
                        Development
                            Hardware and Software                                             10.3
                            Contractor Services                                               44.2
                            Other1                                                            14.7
                            Operations and Maintenance2                                       20.3
                        FinCEN staffing costs3                                                 6.5
                           Total                                                            $107.2
                        Source: OIG analysis of FinCEN data.
                        1
                          Other costs are comprised of (1) program management and program
                        engineering performed by Deloitte and MITRE, (2) a contract office fee of
                        4 percent for the Department of the Interior’s National Business Center
                        Acquisition Services Directorate for support of the BSA IT Modernization
                        Program, and (3) a management reserve for potential additional work to be
                        performed within the authorized work scope of the contract or to
                        accommodate rate changes for future work.
                        2
                          Operations and Maintenance costs are comprised of hosting costs by the
                        Treasury’s Bureau of the Fiscal Service, hardware and software maintenance
                        support, network support, application support, and the application help desk
                        costs.
                        3
                          Staffing costs are estimated based on FinCEN’s Exhibit 300 submissions to
                        the Office of Management and Budget. FinCEN does not track the staffing
                        costs associated with BSA IT Mod.



8
 Alerts provides continuous monitoring of BSA Data and provides users electronic notifications of any
matches against a business rule such as the Federal Bureau of Investigation’s most wanted list.


                      FinCEN’s BSA IT Modernization Program Was within Budget and on Schedule          Page 8
                      But Users Suggest Enhancements (OIG-13-053)
                       FinCEN is funding BSA IT Mod through $119.9 million made
                       available in its annual congressional appropriations and through
                       supplemental funding from the Treasury Forfeiture Fund
                       administered by the Treasury Executive Office of Asset Forfeiture
                       (TEOAF). TEOAF provided funding for the BSA IT Mod Program
                       consistent with its authority to provide funds for law enforcement-
                       related expenditures. 9 Table 3 below identifies the program’s
                       funding sources by year.

                        Table 3: BSA IT Mod Funding Sources as of June 30, 2013
                        (in millions)
                                                                    Treasury
                                         Congressional             Forfeiture
                        Fiscal Year      Appropriation                  Fund           Total
                        2009                     $2.5                  $3.7            $6.2
                        2010                     18.5                  11.7            30.2
                        2011                     18.5                  11.5            30.0
                        2012                     23.5                    6.5           30.0
                        2013                     23.5                    0.0           23.5
                          Total                 $86.5                 $33.4          $119.9
                        Source: OIG analysis of FinCEN and TEOAF documentation.



Finding 2              BSA IT Mod Is Generally Meeting User Needs But Users
                       Suggest Further Enhancements

                       BSA IT Mod continued its transition from the project development
                       phase to the operations and maintenance phase. The final
                       milestone project, Broker Information Exchange, will be tested as it
                       approaches its April 2014 completion date. FinCEN Query users
                       from law enforcement and regulatory agencies we interviewed
                       were generally satisfied with the system, but they expressed
                       concerns about some limitations they experienced with the tool and
                       suggested enhancements. FinCEN analysts found that Advanced
                       Analytics met their needs though they found it somewhat complex
                       and believed additional training would be beneficial.

9
  The Treasury Forfeiture Fund, which is the receipt account for the deposit of non-tax forfeitures made
as a result of law enforcement actions by participating Treasury and Department of Homeland Security
agencies. The Treasury Forfeiture Fund was established under 31 U.S.C. § 9703. The Fund can provide
money to other federal entities to accomplish specific objectives for which the recipient entities are
authorized to spend money and toward other authorized expenses. Distributions from this Fund in
excess of $500,000 cannot be used until the Appropriations Committees from both houses of Congress
are notified. TEOAF submits its planned release of funds to Congress annually. Those submissions
through fiscal year 2012 included the funding provided for the BSA IT Mod program.


                       FinCEN’s BSA IT Modernization Program Was within Budget and on Schedule    Page 9
                       But Users Suggest Enhancements (OIG-13-053)
                       Performance Testing of BSA IT Mod Projects

                       FinCEN continued its transition from project development to the
                       operations and maintenance phase of BSA IT Mod. FinCEN
                       conducted government acceptance testing of all BSA IT Mod
                       projects during previous audit periods except for the final project,
                       Broker Information Exchange, which was still in development.
                       FinCEN plans to test Broker Information Exchange as it progresses
                       toward completion, planned for April 2014.

                       During this ongoing operations and maintenance effort, FinCEN
                       consolidated all ongoing and new issues involving BSA IT Mod.
                       This includes unresolved defects and change requests to be
                       addressed in future project releases. FinCEN and MITRE considered
                       all open defects to be of low severity, meaning that the defects
                       would not significantly impair program performance or
                       functionality. 10

                       In our last audit, we reported that FinCEN Query had been
                       experiencing service interruptions. According to FinCEN program
                       management officials and program documentation, this issue was
                       resolved in March 2013. The issue was created by a software
                       defect and FinCEN worked with the software vendor to repair the
                       problem. FinCEN officials told us that there have been no further
                       issues caused by this defect.

                       Users Largely Satisfied with FinCEN Query and Suggested
                       Enhancements

                       During our audit period, approximately 10,600 users from various
                       law enforcement and regulatory agencies had access to FinCEN
                       Query and made approximately 2.4 million queries. We interviewed
                       a total of 46 users from 11 government agencies, consisting of
                       7 regulatory agencies 11 (34 users) and 4 law enforcement agencies


10
   FinCEN logs and prioritizes all defects, requests for change and enhancements as well as necessary
fixes to repair system functionality. As of June 25, 2013, FinCEN had 153 requests for changes and
enhancements and 275 open defects, which FinCEN continued to address.
11
   The regulatory agencies were Federal Deposit Insurance Corporation, Office of the Comptroller of the
Currency, Board of Governors of the Federal Reserve System, National Credit Union Administration,
IRS’s Small Business/Self-Employed Unit, Security Exchange Commission, and Commodity Futures
Trading Commission.


                       FinCEN’s BSA IT Modernization Program Was within Budget and on Schedule   Page 10
                       But Users Suggest Enhancements (OIG-13-053)
                       (12 users), 12 to determine their level of satisfaction with FinCEN
                       Query. 13 The users we spoke with were largely satisfied. Users told
                       us that the system provided quick results to simple searches,
                       although some users said that more complex searches took longer.
                       Users also told us that they liked FinCEN Query’s features and
                       functionality, such as the capability to import lists into the search
                       criteria and to build more complex searches.

                       Certain users we spoke with did identify some limitations with
                       FinCEN Query, or cited the need for enhancements, as discussed
                       below. FinCEN officials told us that they have begun to re-engage
                       users through the DMC to address and prioritize these and other
                       suggested enhancements. FinCEN wanted users to have time to
                       become familiar with the system before re-engaging them on the
                       data management process, which includes enhancement
                       requests. 14

                       Difficulties Importing BSA IT Mod Data

                       Users with four regulators said that they were having difficulties
                       importing the data from FinCEN Query into their internal systems
                       because the format of the imported data was incompatible. The
                       users told us that the inability to download data into their internal
                       systems had impeded their ability to analyze the data for, among
                       other things, trends.

                       Users with two regulators told us that they had created tools to
                       convert the BSA data downloaded from FinCEN Query to a format
                       recognized by their internal systems, such as their bank
                       examination systems. In this regard, one user told us that any
                       changes FinCEN subsequently makes to BSA IT Mod could impact
                       the regulator’s ability to convert downloaded BSA data for use in


12
   The law enforcement agencies were IRS’s Criminal Investigation Division, U.S. Immigration and
Customs Enforcement, U.S. Secret Service, U.S. Customs and Border Protection, and Massachusetts
State Police.
13
   We also contacted the Department of Justice in the attempt to obtain feedback from BSA IT Mod
users within its various components agencies. However, the user interviews could not be coordinated in
time for this audit. We plan to continue reaching out to Justice for their feedback during our next audit
of BSA IT Mod.
14
   During our audit period, FinCEN initiated a survey to approximately 8,000 users. It expects to finalize
the survey results in September 2013. We plan to review the results of the survey during the next BSA
IT Mod audit.


                       FinCEN’s BSA IT Modernization Program Was within Budget and on Schedule    Page 11
                       But Users Suggest Enhancements (OIG-13-053)
                       its examination applications, and that it was therefore important
                       that FinCEN communicate changes to the users.

                       FinCEN Query Limitations

                       Users with both regulators and law enforcement agencies said that
                       FinCEN Query search results do not display all BSA IT Mod data
                       fields, such as the narrative field on the Suspicious Activity Report
                       (SAR). Additionally, one law enforcement user told us that certain
                       data fields existing within BSA IT Mod could not be searched, such
                       as “port of entry.”

                       Users also told us that FinCEN Query search results were
                       challenging to sort in Microsoft Excel. 15 Because of data format
                       limitations, a search of a subject name for example could yield
                       multiple subject names grouped in a single data cell which makes
                       sorting and analysis difficult.

                       Number of Downloadable Records is Limited

                       Users with regulators told us that the number of data records that
                       can be downloaded from FinCEN Query is limited to 10,000. 16
                       Because of this limit, examiners have to divide downloads into
                       multiple segments, which is time consuming and impedes the
                       efficiency of their examinations because there can be upwards to
                       400,000 records for large financial institutions.

                       According to these users, the capability to download a larger
                       number of records was a business requirement they had requested
                       from FinCEN during the BSA IT Mod requirements phase. FinCEN’s
                       BSA IT Mod program management officials told us that the number
                       of records was limited to avoid the system being slowed down by
                       users downloading large numbers of records. FinCEN’s BSA IT Mod
                       Program manager stated that there has been little evidence that the
                       majority of users would need to download more than 10,000
                       records at one time.




15
  FinCEN Query search results are exportable only into Microsoft Excel for analysis.
16
  A data record is a single BSA report such as a Suspicious Activity Report and contains all the data
associated with the filing.


                       FinCEN’s BSA IT Modernization Program Was within Budget and on Schedule   Page 12
                       But Users Suggest Enhancements (OIG-13-053)
                       Agencies’ Ability to Monitor or Limit Use of FinCEN Query

                       Users told us that there is no mechanism to allow their BSA IT Mod
                       administrators to monitor staff use of FinCEN Query or to limit
                       access to particular features to prevent potential misuse of FinCEN
                       Query and ensure that BSA data is safeguarded. FinCEN program
                       management officials told us that they did not believe that this was
                       an issue that needed to be resolved, but that they would make a
                       concerted effort to better explain to BSA IT Mod administrators
                       how to monitor and limit access to the new system. We plan to
                       evaluate user monitoring controls and guidance provided by FinCEN
                       during our next audit of BSA IT Mod.

                       Opinions of FinCEN’s Responsiveness to Inquiries Varied

                       Overall, users were satisfied with FinCEN’s Application Help Desk’s
                       responsiveness to their general inquiries concerning BSA IT Mod. 17
                       However, some users told us that FinCEN could be more
                       forthcoming with information concerning system changes or
                       defects that had been communicated to FinCEN. These users told
                       us, for example, that FinCEN did not communicate when or how
                       certain issues had been or would be resolved.

                       FinCEN program management officials told us that FinCEN needed
                       time to resolve defects and incorporate system enhancements to
                       address the users’ problems.

                       Additional Training Needed

                       Almost all of the users we spoke with said that they could use
                       more training on FinCEN Query. The users had primarily received
                       online training and thought that more traditional, instructor-led
                       training that was specifically geared for their business needs,
                       would be helpful. 18


17
   Users reported their problems to FinCEN’s Application Help Desk for resolution. The calls were listed
in a log and assigned a “ticket” number. If the issue could be resolved expediently or required urgent
system fixes to restore functionality, FinCEN immediately notified the users to resolve their problems. If
the users’ problems required more time to resolve, such as relating to a system defect or change not
requiring an immediate fix, FinCEN prioritized these for consideration in future system releases.
18
   Online training included live Webinars, training modules, job aides, and access to FinCEN Query’s user
manual.


                       FinCEN’s BSA IT Modernization Program Was within Budget and on Schedule    Page 13
                       But Users Suggest Enhancements (OIG-13-053)
                       FinCEN Analysts Find Advanced Analytics Challenging To Use

                       We spoke with nine internal FinCEN analysts about their
                       experiences with FinCEN Query and Advanced Analytics. Overall,
                       the users told us that the applications were meeting their needs,
                       but those analysts who used Advanced Analytics found it
                       challenging. Analysts told us that a more comprehensive
                       understanding of both the application and underlying data structure
                       is needed, as is continued assistance from Deloitte’s support team.
                       To address these challenges, analysts believed that additional
                       training and experience with the tool was needed.

                       Risks Remain to BSA IT Mod’s Successful Completion

                       Similar to what we reported in March 2013, there is a continued
                       risk with the program’s high-level of dependency between its
                       component projects. The effect of programming changes in any
                       component may require programming changes to other components
                       of the system.

                       There is also continued balance as to how the needs of various
                       users will be considered, prioritized, and accommodated. In this
                       regard, FinCEN’s continued attention will be critical as FinCEN
                       Query and Advanced Analytics users become more familiar with
                       the system and may request changes, enhancements, and support
                       must be determined.

Finding 3              Oversight of BSA IT Mod Continued

                       In our March 2013 report, we reported that FinCEN maintained
                       oversight of BSA IT Mod. FinCEN Program Management Office
                       officials continued to provide technical assistance of BSA IT Mod
                       configuration management, as this was considered more important
                       to the program’s success than was conducting independent
                       assessments. 19 We also found Treasury OCIO’s monitoring of the
                       program was appropriate based on the overall positive track record

19
   Configuration management is a process for establishing and maintaining consistency of a system’s
performance and functional and physical attributes with its requirements, design, and operational
information throughout its life. The process includes the detailed recording and updating of information
that describes an enterprise's hardware and software. It allows computer technicians to see what is
currently installed, make a more informed decision about upgrades needed, and make sure any changes
made to one system do not adversely affect any of the other systems.


                       FinCEN’s BSA IT Modernization Program Was within Budget and on Schedule   Page 14
                       But Users Suggest Enhancements (OIG-13-053)
                      by FinCEN managing the BSA IT Mod development effort. During
                      our current audit, we found that the level of program oversight
                      exercised by FinCEN and Treasury OCIO had not changed since our
                      previous report. Also, not unexpectedly as the development effort
                      moves to operations and maintenance, MITRE and Deloitte are
                      providing less support to FinCEN’s BSA IT Mod program
                      management.

                      FinCEN Oversight

                      Deloitte continued to provide FinCEN with monthly BSA IT Mod
                      program management reviews focused on the program status using
                      Earned Value Management and provided a forum for discussing the
                      risks and risk mitigation plans. 20 In the future, FinCEN program
                      management reviews will focus on the remaining milestone project
                      and related operations and maintenance work. We were told by
                      MITRE officials that FinCEN is managing the program in an
                      acceptable manner and that they had no significant concerns.

                      Treasury OCIO Oversight

                      In our previous audit, we found Treasury OCIO’s monitoring of the
                      program appropriate given the overall positive track record by
                      FinCEN managing the BSA IT Mod development effort. During this
                      audit, we found Treasury OCIO continues to monitor FinCEN
                      monthly data submissions to identify potential issues and performs
                      macro-level reviews including trend analysis. The office also
                      implemented quarterly investment status meetings with FinCEN,
                      and plans to institute a new practice of conducting a post
                      implementation review upon the program’s completion. 21

                      Similar to what we reported in March 2013, Treasury OCIO
                      officials told us that the program was performing well, they were
                      satisfied with the level and quality of BSA IT Mod program data
                      provided by FinCEN, and they were satisfied with FinCEN’s

20
   Earned Value Management measures the value of work accomplished in a given period. Differences in
these values are measured in both cost and schedule variances. Explanations must be provided for
variances of 10 percent and are subject to corrective action plans, BCRs, or termination. The use of
Earned Value Management satisfies Office of Management and Budget requirements on programs
classified as major acquisitions as well IT projects. FinCEN contracted with MITRE to provide an
independent validation to ensure the accuracy of Earned Value Management data.
21
   The post implementation review will evaluate whether the system works as originally planned.


                      FinCEN’s BSA IT Modernization Program Was within Budget and on Schedule   Page 15
                      But Users Suggest Enhancements (OIG-13-053)
                       management of the program. Treasury OCIO changed their overall
                       program rating on the IT Dashboard from “medium risk” to
                       “moderately low risk” because the BSA IT Mod program was close
                       to completion and there is a less stringent schedule for the final
                       project.

                       As we reported in our previous audits of BSA IT Mod, the Treasury
                       CIO is a member of both the BSA IT Mod Modernization Executive
                       Group and Executive Steering Committee, which meets on a
                       quarterly basis or when a major decision or approval is sought.
                       During this audit, Treasury OCIO governance was primarily
                       conducted through Executive Steering Committee e-mails related to
                       the closure of the Alerts project milestone and the BCR to divide
                       the Broker Information Exchange into two phases and to extend the
                       completion date.

                       In summary, we believe that the oversight by FinCEN management
                       and Treasury OCIO during this audit period was appropriate given
                       the overall positive track record by FinCEN in managing its BSA IT
                       Mod development effort. We plan to continue to review program
                       oversight exercised in our future audits of the program.


Recommendations
                       We recommend the FinCEN Director:

                       1. When making changes to BSA IT Mod, communicate the
                          changes to users.

                          Management Response

                          Representatives from federal regulatory and law enforcement
                          agencies that use FinCEN Query participate in FinCEN monthly
                          DMC meetings. FinCEN will continue to communicate system
                          changes and release updates at the monthly DMC meetings, as
                          well as continue to make announcements and information
                          available via the FinCEN Portal. 22



22
  The FinCEN Portal is the gateway for authorized federal, state, and local law enforcement and
regulatory users to access BSA data, reports, secure e-mail, training, and help resources.


                       FinCEN’s BSA IT Modernization Program Was within Budget and on Schedule    Page 16
                       But Users Suggest Enhancements (OIG-13-053)
   OIG Comment

   The above commitment by FinCEN meets the intent of our
   recommendation.

2. Continue to engage users to address their concerns and
   suggested enhancements to BSA IT Mod through the DMC and
   periodically communicate the status of these suggestions to
   users.

   Management Response

   FinCEN uses the DMC as the forum to discuss the business
   impacts of system issues and suggested changes or
   enhancements raised by users. FinCEN will continue to use the
   DMC in this manner to inform the Investment Review Board as
   it prioritizes work efforts throughout operations and
   maintenance.

   OIG Comment

   The above commitment by FinCEN meets the intent of our
   recommendation.

3. Ensure that training and support is provided to internal and
   external BSA IT Mod users that address general as well as
   unique business needs.

   Management Response

   For the FinCEN Query tool, FinCEN currently has modular, web-
   based training, online help, a quick reference guide, and 10 job
   aids available to users on the FinCEN Portal. FinCEN has held 26
   webinars and 48 in-person training courses, in addition to
   various hands-on training during separate inspection visits. For
   the Advanced Analytics tool used by FinCEN analysts, FinCEN
   conducted instructor-led training prior to deployment. In
   addition, FinCEN brought in the vendor for 11 onsite training
   courses and conducted approximately 12 brown bag sessions to
   demonstrate new capabilities and respond to questions. FinCEN
   does recognize the need for additional educational support to its
   user community and commits to developing a comprehensive,
   sustainable training plan that targets external users, as well as

FinCEN’s BSA IT Modernization Program Was within Budget and on Schedule   Page 17
But Users Suggest Enhancements (OIG-13-053)
   FinCEN analysts. The estimated completion date is February
   2014.

   OIG Comment

   The above actions taken and planned by FinCEN meet the intent
   of our recommendation.

                            ******
We appreciate the cooperation and courtesies extended to our staff
during the audit. If you wish to discuss the report, you may
contact me at (617) 223-8640 or Mark Ossinger, Audit Manager,
at (617) 223-8643. Major contributors to this report are listed in
appendix 4.

/s/
Sharon Torosian
Audit Director




FinCEN’s BSA IT Modernization Program Was within Budget and on Schedule   Page 18
But Users Suggest Enhancements (OIG-13-053)
                        Appendix 1
                        Objectives, Scope, and Methodology




                        Pursuant to a Congressional directive, 23 this is the fourth in a series
                        of audits of the Financial Crimes Enforcement Network's (FinCEN)
                        Bank Secrecy Act (BSA) Information Technology Modernization
                        Program (BSA IT Mod). Our objective was to determine if FinCEN is
                        (1) meeting cost, schedule, and performance benchmarks for this
                        program and (2) providing appropriate oversight of contractors. In
                        addition, we evaluated any deviations from FinCEN’s plan, and
                        determined how the system was meeting the users’ needs. We
                        determined the status of the program’s cost, schedule, and
                        performance through June 30, 2013.

                        To accomplish our objective, we interviewed officials with FinCEN,
                        Department of the Treasury’s Office of the Chief Information
                        Officer (OCIO), and FinCEN’s contractors. We also interviewed
                        various BSA IT Mod users internal and external to FinCEN. In
                        addition, we reviewed applicable program documentation. We
                        performed our fieldwork from April 2013 through July 2013.

                        At FinCEN, we interviewed:

                        •   The Chief Information Officer (CIO), Chief Technology Officer
                            (CTO), and the BSA IT Mod Program Manager to obtain an
                            update on BSA IT Mod, cost and schedule concerns, project
                            testing conducted and defect resolution, strategies employed,
                            and overall progress of the program.

                        •   The Assistant Director and staff for FinCEN’s Project
                            Management Office to obtain an understanding of their level of
                            involvement with program oversight and to gain their
                            perspective on the program’s status in terms of cost, schedule,
                            and performance.

                        •   The project managers, project leaders, and contracting officer
                            representatives responsible for each BSA IT Mod project to
                            obtain an understanding of their perspective, level of
                            involvement, schedule and performance concerns, and overall
                            progress of their respective projects.



23
     House Report (H. Rept.) 112-331


                        FinCEN’s BSA IT Modernization Program Was within Budget and on Schedule   Page 19
                        But Users Suggest Enhancements (OIG-13-053)
Appendix 1
Objectives, Scope, and Methodology




•   The Acting Associate Director for Intelligence to obtain an
    understanding of the extent to which FinCEN analysts use
    Advanced Analytics.

External to FinCEN, we interviewed the following officials:

•   Deloitte LLP’s Managing Director and Deloitte’s Program
    Manager and Analyst for Earned Value Management for BSA IT
    Mod to obtain an update on their perspective of BSA IT Mod
    and ascertain the program’s status. These interviews were
    conducted at the contractor’s office in Rosslyn, Virginia.

•   MITRE representatives to obtain an update of MITRE’s role as
    the federally funded research and development contractor, its
    level of involvement with the program, as well as issues,
    concerns, and other significant matters observed. These
    interviews were conducted at a MITRE office in McLean,
    Virginia.

•   The Treasury OCIO’s Director of IT Capital Planning for an
    update on OCIO’s role in overseeing BSA IT Mod, as well as
    issues, concerns, and other significant matters.

•   The Internal Revenue Service’s (IRS) Modernization, Information
    Technology and Security Services Division to identify any
    concerns they may have regarding BSA IT Mod.

•   U.S. Customs and Border Protection officials to determine the
    status of agency system upgrade that would allow the agency
    to receive bulk BSA data directly from FinCEN instead of IRS’
    legacy system for BSA data.

We interviewed a total of 46 BSA IT Mod users. The individuals
selected for interview were among the more frequent users of BSA
IT Mod according to FinCEN documentation. Our interviews
included users with seven regulatory agencies (34 users) and four
law enforcement agencies (12 users) to understand how they use
FinCEN Query and if it was meeting their needs. The regulatory
agencies represented by the users interviewed were Federal
Deposit Insurance Corporation, Office of the Comptroller of the
Currency, Federal Reserve Board, National Credit Union

FinCEN’s BSA IT Modernization Program Was within Budget and on Schedule   Page 20
But Users Suggest Enhancements (OIG-13-053)
Appendix 1
Objectives, Scope, and Methodology




Administration, IRS’s Small Business/Self-Employed Unit, Security
Exchange Commission, and Commodity Futures Trading
Commission. Law enforcement agencies represented by the users
interviewed were IRS Criminal Investigation Division, U.S.
Immigration and Customs Enforcement, U.S. Secret Service, and
Massachusetts State Police. We also interviewed 9 FinCEN
analysts to understand how they used Advanced Analytics and if it
was meeting their needs.

We reviewed FinCEN program-related information, including:
management reports; minutes from executive, management, and
technical meetings; planning documentation; program and project
level documentation; and FinCEN presentations to internal and
external oversight groups (e.g., Congress, Office of Management
and Budget, Treasury OCIO, BSA IT Mod Modernization Executive
Group and Executive Steering Committee, and FinCEN
management).

We reviewed program management briefings and status reports,
internal and external program performance assessment reports, and
related documentation to assess program performance status,
risks, and issues.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




FinCEN’s BSA IT Modernization Program Was within Budget and on Schedule   Page 21
But Users Suggest Enhancements (OIG-13-053)
Appendix 2
Additional Background Information on BSA IT Mod


Projects Included

The Bank Secrecy Act (BSA) Information Technology Modernization
Program (BSA IT Mod) is made up of multiple projects with specific
components. The projects are summarized below. All projects
except for Broker Information Exchange were completed as of
June 30, 2013.

•   System of Record (SOR) provides data storage and architecture
    for BSA data for 11 years of BSA data.

•   Shared Filing Services provides for validation of BSA data with
    external data sources, such as validation of addresses to U.S.
    Postal Service data.

•   Third Party Data provides the SOR additional BSA data through
    external data sources such as the financial institution
    identification number assigned by the Federal Reserve.

•   Bulk Data Dissemination is used for the distribution of large
    quantities of BSA data to external users.

•   Data Conversion converted 11 years of BSA data from an
    Internal Revenue Service legacy system to the FinCEN’s new
    SOR.

•   BSA E-Filing is used by BSA filers to submit all required
    electronic filing of BSA forms to FinCEN.

•   FinCEN Query is a tool designed to improve authorized users’
    ability to access and analyze BSA data. The tool is used by
    FinCEN internal users and by registered external users and
    customers to retrieve and analyze BSA data. The tool supports
    traditional structured BSA data queries, and provides narrative
    search capabilities and options to coordinate and collaborate
    with users on queries performed.

•   Advanced Analytics provides complex search and retrieval
    functionality for FinCEN internal users to support their
    analytical, law enforcement, and regulatory activities. The tool
    provides advanced analytical capabilities such as geospatial,


FinCEN’s BSA IT Modernization Program Was within Budget and on Schedule   Page 22
But Users Suggest Enhancements (OIG-13-053)
                         Appendix 2
                         Additional Background Information on BSA IT Mod


                             statistical analysis, social networking, semantic interchange,
                             and visualization capabilities.

                         •   Register User Portal/Identity Management/Access Control
                             Management provides the means for common user interface and
                             authentication process through which both internal and external
                             authorized users gain access to all future BSA IT Mod
                             applications.

                         •   Infrastructure provided the design, development, procurement,
                             and implementation of the development and test environments,
                             storage area network(s), and disaster recovery capabilities
                             required to support BSA IT Mod projects.

                         •   Broker Information Exchange provides the Financial Intelligence
                             Repository, and 314A and 314B components. The Financial
                             Intelligence Repository project is to replace FinCEN’s case
                             management systems—FinDB for investigative cases, and the
                             Customer Management System for compliance cases. The first
                             release of the Financial Intelligence Repository project is to
                             create the Financial Intelligence Repository and incorporates
                             SharePoint (a Microsoft software application for sharing
                             information) as a mechanism to share case information for both
                             internal and external users. The 314A component allows law
                             enforcement agencies to submit requests through FinCEN to
                             financial institutions for information about financial accounts
                             and transactions of persons or businesses that may be involved
                             in terrorism or money laundering. The 314B component allows
                             financial institutions to share information with one another
                             through FinCEN to identify and report suspicious money
                             laundering or terrorist activities to the federal government.
                             314A and 314B refer to Section 314 of the USA Patriot Act
                             that requires FinCEN of establish these functionalities. 24 The
                             project is ongoing as of June 2013.

                         •   Alerts provides for an automatic alert to be sent to FinCEN
                             analysts about suspicious activities reported by filers based on
                             pre-defined criteria.



24
     Section 314 of the USA Patriot Act is established under 31 U.S.C. § 5311.


                         FinCEN’s BSA IT Modernization Program Was within Budget and on Schedule   Page 23
                         But Users Suggest Enhancements (OIG-13-053)
                       Appendix 2
                       Additional Background Information on BSA IT Mod


                       Contractors Engaged by FinCEN

                       In March 2008, FinCEN awarded a 5-year indefinite delivery,
                       indefinite quantity (IDIQ) contract to BearingPoint, Inc., to support
                       a full range of information technology services, custom
                       applications, maintenance support, and infrastructure support
                       necessary to implement the FinCEN IT operational objectives.
                       Numerous task orders have been issued against the contract
                       including those for the BSA IT Mod program. 25 The contract was
                       subsequently transferred to Deloitte Consulting, LLP (Deloitte). 26
                       The contract ceiling is a maximum of $144 million and a minimum
                       of $1 million over the contract’s 5-year life. FinCEN also contracted
                       with MITRE Corporation (MITRE) at a cost of approximately $1.5
                       million to provide management guidance, coordination, and
                       evaluation support for BSA IT Mod. 27 MITRE is a subject matter
                       expert on program and project management, and BSA IT Mod
                       business capabilities.

                       FinCEN is using the Acquisitions Services Directorate of the U.S.
                       Department of the Interior as the contract office to administer the
                       contract. FinCEN chose this office because of its prior experience
                       handling large, complex procurements. At the time of our audit,
                       FinCEN was transitioning away from using Acquisitions Services
                       Directorate for new contracting services related to BSA IT Mod to
                       Treasury’s Bureau of the Fiscal Service Administrative Resource
                       Center. This transition is expected to be complete by December
                       2013.

25
   An IDIQ contract provides for an indefinite quantity of services during a fixed period of time. This
type of contract is used when it cannot be predetermined, above a specified minimum, the precise
quantities of supplies or services that the government will require during the contract period. IDIQ
contracts are most often used for service contracts and architect-engineering services. An IDIQ contract
is flexible, especially when not all the requirements are known at the start of a contract and is
conducive to a modular approach, which would be one with phases or milestones.
26
   The IDIQ contract was transferred from BearingPoint, Inc. to Deloitte on October 1, 2009 after
Deloitte purchased substantially all of the assets of Bearing Point, Inc., Public Service Division.
27
   MITRE is a not-for-profit organization chartered to work in the public interest with expertise in
systems engineering, information technology, operational concepts, and enterprise modernization.
Among other things, it manages federally funded research and development centers, including one for
IRS and U.S. Department of Veterans Affairs (the Center for Enterprise Modernization). Under
Treasury’s existing contract with MITRE, Treasury and its bureaus, with permission of the IRS sponsor,
may contract for support in the following task areas: strategic management, technical management,
program and project management, procurement, and evaluation and audit to facilitate the modernization
of systems and their business and technical operation.


                       FinCEN’s BSA IT Modernization Program Was within Budget and on Schedule   Page 24
                       But Users Suggest Enhancements (OIG-13-053)
Appendix 3
Management Response




FinCEN’s BSA IT Modernization Program Was within Budget and on Schedule   Page 25
But Users Suggest Enhancements (OIG-13-053)
Appendix 3
Management Response




FinCEN’s BSA IT Modernization Program Was within Budget and on Schedule   Page 26
But Users Suggest Enhancements (OIG-13-053)
Appendix 4
Major Contributors to this Report




Boston Office

Mark Ossinger, Audit Manager
Kenneth O’Loughlin, Audit Manager
Richard Wood, Auditor

Washington, D.C.

Larissa Klimpel, Referencer




FinCEN’s BSA IT Modernization Program Was within Budget and on Schedule   Page 27
But Users Suggest Enhancements (OIG-13-053)
Appendix 5
Report Distribution




Department of the Treasury

   Deputy Secretary
   Under Secretary for Terrorism and Financial Intelligence
   Chief Information Officer
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
       Group

Financial Crimes Enforcement Network

   Director

Office of Management and Budget

   OIG Budget Examiner

U.S. Senate

   Chairman and Ranking Member
   Committee on Appropriations

   Chairman and Ranking Member
   Subcommittee on Financial Services and General Government
   Committee on Appropriations

U.S. House of Representatives

   Chairman and Ranking Member
   Committee on Appropriations

   Chairman and Ranking Member
   Subcommittee on Financial Services and General Government
   Committee on Appropriations




FinCEN’s BSA IT Modernization Program Was within Budget and on Schedule   Page 28
But Users Suggest Enhancements (OIG-13-053)
